                Individual Income Tax Return Transactions
                  Were Timely and Accurately Recorded
                           to Taxpayer Accounts

                                   January 2004

                       Reference Number: 2004-40-035




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       January 2, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                           Gordon C. Milbourn III
                                       Acting Deputy Inspector General for Audit

       SUBJECT:                        Final Audit Report - Individual Income Tax Return Transactions
                                       Were Timely and Accurately Recorded to Taxpayer Accounts
                                       (Audit # 200240078)


       This report presents the results of our review of the posting of individual income tax
       return transactions and the subsequent generation of refunds or assessments. The
       overall objective of this review was to determine whether the Internal Revenue Service
       (IRS) timely and accurately posted individual income tax return transactions to the
       Individual Master File (IMF)1 and timely and accurately generated related refunds or
       assessments. This audit was the last in a series of audits conducted to review key
       areas critical to the success of the IRS’ 2003 Filing Season.2
       In summary, we found that the IRS timely and accurately recorded individual income tax
       return transactions to taxpayers’ IMF accounts. We used statistically valid methods to
       sample return transactions from 1.2 million Tax Year (TY) 2002 individual income tax
       returns recorded on IMF accounts between January and June 2003. In addition, the
       IRS timely issued refunds for TY 2002 individual income tax returns, and the refunds
       were issued in the manner requested by the taxpayer, whether by direct deposit, paper
       check, or as a credit applied to next year’s taxes.
       The IRS was not required to respond to this report because it does not include any
       recommendations. However, IRS management officials reviewed it prior to issuance.
       Copies of this report are also being sent to the IRS managers who are affected by
       the report findings. Please contact me at (202) 622-6510 if you have questions, or



       1
           The IRS database that maintains transactions or records of individual tax accounts.
       2
           The period from January through mid-April when most individual income tax returns are filed.
                                          2

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
                          Individual Income Tax Return Transactions Were
                       Timely and Accurately Recorded to Taxpayer Accounts




                                             Table of Contents


Background ............................................................................................... Page 1
Individual Income Tax Return Transactions Were Timely and
Accurately Recorded to the Individual Master File..................................... Page 2
Tax Refunds Were Timely Issued.............................................................. Page 5
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 7
Appendix II – Major Contributors to This Report........................................ Page 8
Appendix III – Report Distribution List ....................................................... Page 9
Appendix IV – Listing of Prior Reviews to Assess the Internal
Revenue Service’s Preparation for the 2003 Filing Season ...................... Page 10
                Individual Income Tax Return Transactions Were
             Timely and Accurately Recorded to Taxpayer Accounts

                             During 2003, the Internal Revenue Service (IRS) processed
Background
                             over 131 million individual income tax returns and issued
                             over $202 billion in individual income tax refunds.
                             Information from each of these returns must be recorded to
                             the individual taxpayer’s account on the IRS’ Individual
                             Master File (IMF).
                             The IMF is the IRS database that maintains the return
                             transactions, which are recorded to individual taxpayer
                             accounts for each tax year. Return transactions are recorded
                             as a debit or credit amount that originates from the tax
                             return. Return transactions include:
                             •   Tax liability.
                             •   Credit for withholdings.
                             •   Overpayment credit applied from prior years.
                             •   Earned Income Tax Credit.
                             •   Estimated tax payments.
                             •   Refund of overpayment.
                             •   Overpayment credit applied to next year.
                             In order for the IRS to issue correct and timely refunds or
                             balance due notices, the return transactions must be timely
                             and accurately recorded to the IMF.
                             As part of our overall audit strategy, we have conducted
                             several reviews (see Appendix IV for a listing of these
                             reviews) to assess the IRS’ preparation for and processing of
                             individual income tax returns during the 2003 Filing
                             Season.1 This review is the last in the series of audits
                             conducted to review key areas critical to the success of the
                             2003 Filing Season.
                             This review was performed in the IRS’ Wage and
                             Investment Division office at its Submission Processing Site
                             in Austin, Texas, from July through November 2003. The
                             audit was conducted in accordance with Government
                             Auditing Standards. Detailed information on our audit
                             objective, scope, and methodology is presented in

                             1
                               The period from January through mid-April when most individual
                             income tax returns are filed.
                                                                                          Page 1
                   Individual Income Tax Return Transactions Were
                Timely and Accurately Recorded to Taxpayer Accounts

                                Appendix I. Major contributors to the report are listed in
                                Appendix II.
                                The IRS timely and accurately recorded individual income
Individual Income Tax Return
                                tax return transactions to taxpayers’ IMF accounts. We
Transactions Were Timely and
                                used statistically valid methods to sample return
Accurately Recorded to the
                                transactions from 1.2 million Tax Year (TY) 2002
Individual Master File
                                individual income tax returns recorded on taxpayer IMF
                                accounts between January and June 2003. All of the
                                transactions we reviewed were accurately recorded, and all
                                but one transaction was timely recorded.
                                Refund returns
                                We reviewed a statistical sample of 73 individual income
                                tax returns from a population of 949,211 refund returns and
                                found:
                                •   100 percent of the return transactions were accurate.
                                •   98.6 percent of the return transactions were timely.
                                To determine whether return transactions were accurately
                                recorded, we reviewed the returns and identified the specific
                                items that were recorded as return transactions on the
                                taxpayer’s IMF account. These included items such as tax
                                liability, tax withholdings, estimated payments, Earned
                                Income Tax Credit, and refund amount.
                                On 70 of the refund returns reviewed, the transaction
                                amounts recorded to the taxpayer’s IMF account matched
                                the amounts reported on the income tax return. In the
                                remaining three instances, there were differences between
                                the amounts reported on the taxpayer’s return and the
                                amount recorded on the taxpayer’s IMF account; however,
                                in each instance, the difference was a result of either a
                                refund offset2 or a taxpayer error that had been corrected by
                                the IRS during return processing.
                                To assess whether the return transactions were timely
                                recorded, we measured the time between the date the IRS
                                received the tax return and the date the return transactions

                                2
                                 The IRS is required to offset or apply a taxpayer’s overpayment to any
                                outstanding Federal tax, delinquent child support, Federal agency debt,
                                or state income tax obligation prior to issuing a refund or credit to a
                                future tax obligation.
                                                                                               Page 2
   Individual Income Tax Return Transactions Were
Timely and Accurately Recorded to Taxpayer Accounts

                were recorded to the taxpayer’s IMF account. We used
                40 calendar days as the criteria for determining timeliness.3
                IRS guidelines for timeliness are primarily for the
                processing of returns at submission processing sites and do
                not include the overall time needed to record the return
                transactions to the taxpayer’s IMF account. To arrive at the
                40 calendar day timeliness criteria, we took the submission
                processing timeliness criteria of 16 workdays,4 added
                6 calendar days to account for non-workdays, and then
                added an additional 18 calendar days to account for the IMF
                processing cycle.5
                On 72 of the 73 tax returns, the return transactions were
                recorded on the taxpayer’s IMF account within 40 calendar
                days. The remaining tax return took 45 days to be recorded
                on the taxpayer’s IMF account. The average number of
                days for the return transactions to be recorded was 25 days.
                The sample of 73 refund returns included 43 electronically
                filed returns and 30 paper returns. All 43 of the
                electronically filed return transactions were recorded timely
                and averaged 21 days. Paper return transactions averaged
                31 days.
                Non-refund returns
                We reviewed a second statistical sample of 73 non-refund
                individual income tax returns from a population of
                241,472 returns, and found:
                •   100 percent of the return transactions were accurate.
                •   100 percent of the return transactions recorded were
                    posted timely.




                3
                  This measurement is also the IRS’ Customer Service Goal for
                processing refund returns.
                4
                  IRS timeliness guidelines are for paper return processing; there are no
                separate or shorter guidelines for electronic returns.
                5
                  The IMF processing cycle is the time in which tax return data are
                received, controlled, and formatted for processing updates to individual
                taxpayer accounts. This time includes determining whether transactions
                can be recorded; reconciling debits and credits; updating status;
                computing, assessing, and abating penalties and interest; and
                determining account balances or refunds.
                                                                                 Page 3
   Individual Income Tax Return Transactions Were
Timely and Accurately Recorded to Taxpayer Accounts

                All return transaction amounts shown on the return either
                matched the amounts recorded on the taxpayer’s IMF
                account or were properly adjusted to reflect the correct
                amount. There were six instances in which the amount on
                the return differed from the return transaction amounts;
                however, these differences were all due to taxpayer errors
                that were corrected by the IRS during return processing.
                Unlike the refund returns, the non-refund returns are
                comprised of a variety of return types with different
                timeliness criteria. Of the 73 returns in the non-refund
                return sample, 49 were Fully Paid (FP)6 returns, and 24 were
                non-refund Other Than Full Paid (OTFP)7 returns. Because
                the IRS has different timeliness criteria for processing
                refund, FP, and OTFP returns, we could not use the same
                40 calendar day criteria used in our sample of refund
                returns.
                FP returns are traditionally stored upon receipt and not
                processed until after the peak processing period has been
                completed. The IRS assumes that the taxpayer’s figures on
                the return are correct and that notification of a balance due
                is not necessary. This practice allows the IRS to expedite
                the processing of time-sensitive refund returns. However, it
                can increase the number of calendar days it takes to process
                an FP return. IRS timeliness guidelines simply provide that
                processing of FP returns at submission processing sites must
                be completed by July 10. We then accounted for the
                additional 18 calendar days for IMF processing and
                considered all FP return transactions processed to taxpayer
                IMF accounts by July 28 to be timely.
                Non-refund OTFP returns have a completion date of May 22
                for processing at submission processing sites. When the
                additional 18 calendar days for IMF processing are
                included, we considered all non-refund OTFP return
                transactions timely if recorded to taxpayer IMF accounts by
                June 9.



                6
                  Returns are considered FP when a remittance for the exact amount of
                balance due reflected on the return is submitted with the return.
                7
                  The OTFP returns in our sample included balance due, credit elect,
                even balance, and non-taxable returns.
                                                                               Page 4
                   Individual Income Tax Return Transactions Were
                Timely and Accurately Recorded to Taxpayer Accounts

                                In addition to our reviews for timeliness and accuracy of
                                recording return transactions to taxpayer IMF accounts, we
                                reviewed non-refund returns to determinate whether unpaid
                                taxes were assessed timely on balance due notices. We
                                found that 10 of the 73 returns we reviewed had unpaid
                                balances due and that in each case, the balance due notice
                                was issued timely.
                                The IRS timely issued refunds for TY 2002 individual
Tax Refunds Were Timely
                                income tax returns filed and processed during the
Issued
                                2003 Filing Season. In addition, the refunds were issued in
                                the manner requested by the taxpayer, whether by direct
                                deposit, paper check, or as a credit applied to next year’s
                                taxes. Our review of the statistically selected sample of
                                73 individual income tax returns from the population of
                                949,211 TY 2002 refund returns filed between January and
                                June 2003 found:
                                •      98.6 percent of the refunds were issued in 40 days or
                                       less.
                                •      100 percent of the refunds were issued as the taxpayer
                                       requested.
                                The IRS measures refund timeliness as the percentage of
                                refunds from paper returns issued in 40 days or less.8 The
                                IRS calculates refund timeliness by computing the number
                                of days it takes the taxpayer to receive his or her refund
                                starting 2 days prior to the date the taxpayer’s return is
                                received by the IRS through the day the taxpayer receives
                                his or her refund. By computing timeliness in this manner,
                                the measurement is taken from the taxpayer’s perspective.
                                To evaluate the timeliness of our sample of refund returns,
                                we duplicated the IRS’ method for computing timeliness.
                                However, because our sample of refund returns was selected
                                to evaluate the accuracy and timeliness in recording return
                                transactions to taxpayers’ IMF accounts in addition to
                                refund timeliness, both electronically filed and paper tax
                                returns were included in our measurement. The IRS’
                                timeliness measurement is limited to paper tax returns.




                                8
                                    The IRS does not measure electronically filed returns.
                                                                                             Page 5
   Individual Income Tax Return Transactions Were
Timely and Accurately Recorded to Taxpayer Accounts

                In 72 of the 73 returns we reviewed, the refunds were issued
                in less than 40 days. For 1 return, it took 45 days to issue
                the refund; no reason for the delay could be identified. Of
                the 73 returns, 43 were electronically filed tax returns and
                30 were paper tax returns. We found that all the
                electronically filed return refunds were issued within
                40 days, and the average refund issue time was 12 days
                from the return transmission date to the refund received
                date. For 29 of the 30 paper returns, refunds were issued
                within 40 days. The average refund issue time for paper
                returns was 30 days.
                In FY 2003, the IRS had a corporate goal for refund
                timeliness of 98.4 percent. According to IRS data, the
                FY 2003 refund timeliness measure was 98.8 percent, which
                exceeded the IRS’ goal.




                                                                     Page 6
                        Individual Income Tax Return Transactions Were
                     Timely and Accurately Recorded to Taxpayer Accounts

                                                                                                   Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Internal Revenue Service (IRS)
timely and accurately posted individual income tax return transactions to the Individual Master
File (IMF)1 and timely and accurately generated related refunds or assessments. This review was
included in our Fiscal Year 2003 Annual Audit Plan for the Wage and Investment Income
Programs and is part of our overall strategy to review key areas critical to the success of the IRS’
2003 Filing Season.2 To accomplish our objective, we:
I. Determined whether individual income tax returns with refund transactions were correctly
   posted to the IMF.
    A. Identified a population of 949,211 Tax Year (TY) 2002 individual income tax returns
       due refunds included in the IMF 1 Percent Sample File3 between January and
       June 2003.
    B. Selected and reviewed a statistically valid sample of 73 individual income tax returns
       with refunds, using a 95 percent confidence level, a precision of + 5 percent, and a
       5 percent expected error rate.
    C. Reviewed the refund transactions from the statistical sample in I.B to determine whether
       return transactions were timely and accurately posted to the IMF and that tax refunds
       were issued timely.
II. Determined whether individual income tax returns where the tax liability has either been
    fully paid or has a balance due were correctly posted to the IMF.
    A. Identified a population of 241,472 TY 2002 individual income tax returns with a zero or
       balance due tax liability included in the IMF 1 Percent Sample File between January and
       June 2003.
    B. Selected and reviewed a statistically valid sample of 73 individual income tax returns
       with a zero or balance due tax liability, using a 95 percent confidence level, a precision of
       + 5 percent, and a 5 percent expected error rate.
    C. Reviewed 10 returns from the sample in II.B with outstanding balances due and
       determined that all taxpayer notices were issued timely.



1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  The period from January through mid-April when most individual income tax returns are filed.
3
  The IMF 1 Percent Sample File is a snapshot in time of data captured during IMF processing at the Martinsburg
Computing Center and contains approximately 1 percent of all transactions recorded to the IMF for the time period
covered.
                                                                                                          Page 7
                    Individual Income Tax Return Transactions Were
                 Timely and Accurately Recorded to Taxpayer Accounts

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Gary L. Young, Audit Manager
Tina M. Parmer, Senior Auditor
Steven D. Stephens, Senior Auditor
Steven E. Vandigriff, Senior Auditor
Bonnie G. Shanks, Auditor




                                                                                         Page 8
                   Individual Income Tax Return Transactions Were
                Timely and Accurately Recorded to Taxpayer Accounts

                                                                      Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services SE:W:CAS
Director, Strategy and Finance SE:W:S
Director, Submission Processing SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison SE:W:S:PA




                                                                           Page 9
                          Individual Income Tax Return Transactions Were
                       Timely and Accurately Recorded to Taxpayer Accounts

                                                                                                   Appendix IV


             Listing of Prior Reviews to Assess the Internal Revenue Service’s
                            Preparation for the 2003 Filing Season

The following is a list of five 2003 Filing Season1 reviews that are included in our Fiscal
Year 2003 Annual Audit Plan for the Treasury Inspector General for Tax Administration’s Wage
and Investment (W&I) Income Programs, Customer Account Services business unit. The overall
purpose of the reviews was to evaluate the Internal Revenue Service’s (IRS) success in planning
and executing the 2003 Filing Season. The specific objective for each review is shown below.

The Internal Revenue Service Has Procedures to Ensure There Is Sufficient Trained Staff to
Process Individual Income Tax Returns in 2003 (Reference Number: 2003-40-055,
dated February 2003)

•     Overall Objective: To determine whether the IRS’ W&I Division has procedures in place to
      ensure there is a sufficient number of trained staff to process individual income tax returns
      during the 2003 Filing Season.

Pre-Filing Season Activities to Address Specific Individual Electronic Filing Issues Were
Adequately Conducted (Reference Number: 2003-40-073, dated March 2003)

•     Overall Objective: To determine the state of readiness of the IRS to accept electronically
      filed individual income tax returns for processing during the 2003 Filing Season. The audit
      was limited to the activities necessary to ensure the acceptance of electronic returns that may
      be affected by tax law change provisions relating only to the education and retirement
      provisions.

Forms and Publications for the New Education and Retirement Tax Provisions Were
Addressed for the 2003 Filing Season (Reference Number: 2003-40-105, dated April 2003)

•     Overall Objective: To determine whether the IRS identified the new tax law provisions that
      had a significant impact on W&I Division taxpayers and ensured that tax forms, instructions,
      and publications related to these new provisions were clearly and accurately updated for the
      2003 Filing Season. The audit focused on the education and retirement provisions in the
      Economic Growth and Tax Relief Reconciliation Act of 2001 (EGTRRA).2 These provisions




1
    The period from January through mid-April when most individual income tax returns are filed.
2
    Pub. L. No. 107-16, 115 Stat. 38 (2001).
                                                                                                        Page 10
                         Individual Income Tax Return Transactions Were
                      Timely and Accurately Recorded to Taxpayer Accounts

    could affect an estimated 86.5 million taxpayers3 by providing tax benefits of up to
    $7.6 billion in Fiscal Year 2003.4

Computer Programming Requests for the 2003 Filing Season Were Timely Prepared and
Generally Accurate (Reference Number: 2003-40-112, dated May 2003)

•   Overall Objective: To determine whether the IRS timely prepared and accurately initiated
    computer programming requests5 for new tax law provisions that impact individual income
    tax return processing during the 2003 Filing Season. The audit focused on those requests for
    computer programming changes needed to implement the education and retirement
    provisions in the EGTRRA.

The 2003 Filing Season Was Completed Timely and Accurately, but Some New Tax Law
Changes Were Not Effectively Implemented (Reference Number: 2004-40-003, dated
October 2003)

•   Overall Objective: To determine whether the IRS timely and accurately processed paper and
    electronic individual income tax returns during the 2003 Filing Season. The audit focused on
    the implementation of tax law changes that affected Tax Year 2002 individual income tax
    returns.




3
  National Center for Education Statistics, Projections of Education Statistics to 2012, May 2002, and United States
Selected Income and Tax Items 1040, 1040A, and 1040EZ, Report Number R-S-92, January – September 2002.
4
  Congressional Budget Office, Pay-As-You-Go Estimate, June 4, 2001.
5
  Requests for Information Services.
                                                                                                            Page 11
